                              Report Template Version = 03-01-05_rev.07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE PAYMENTS FOR

   AMBULANCE TRANSPORTS





                    Daniel R. Levinson 

                     Inspector General 


                      January 2006

                     OEI-05-02-00590

                                                                 Report Template Version = 03-01-05_rev.07




                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                                                               Report Template Version = 03-01-05_rev.07




Δ   E X E C U T I V E                                   S U M M A R Y                     



                  OBJECTIVE
                  To evaluate whether ambulance transports met Medicare’s coverage
                  and level of service criteria and to evaluate safeguards in place to
                  identify improper payments.


                  BACKGROUND
                  Medicare covers and pays for emergency and nonemergency ambulance
                  transports when a beneficiary’s medical condition, at the time of
                  transport, is such that other means of transportation, such as taxi,
                  private car, wheelchair van, or other type of vehicle, would jeopardize
                  his or her health. Generally, nonemergency transports involve a
                  beneficiary who is bed-confined. In calendar year (CY) 2002, Medicare
                  allowed almost $3 billion for ambulance transports.

                  Previous Office of Inspector General (OIG) studies indicated that
                  Medicare’s ambulance transport benefit was highly vulnerable to abuse.
                  A 1994 inspection found that 70 percent of sampled dialysis-related
                  ambulance transport claims did not meet Medicare’s coverage
                  requirements. A 1998 report found that two-thirds of sampled
                  ambulance transports did not meet Medicare’s coverage requirements;
                  the majority of the claims found in error were nonemergency transports.
                  We conducted this study because of the extent of problems found in the
                  past with specific kinds of ambulance transports and to determine if the
                  ambulance benefit was being used appropriately. We based our review
                  on a sample of 720 ambulance claims from 2002 stratified by three
                  categories of ambulance transports: transports to and from dialysis
                  facilities, nonemergency transports, and emergency transports.


                  FINDINGS
                  Twenty-five percent of ambulance transports did not meet
                  Medicare’s program requirements, resulting in an estimated
                  $402 million of improper payments. In CY 2002, 13 percent of
                  transports did not meet coverage criteria because the patient’s condition
                  did not warrant transport by ambulance, resulting in an estimated
                  $220 million in improper payments. Nine percent of covered transports
                  did not meet level of service criteria because a lower level of ambulance
                  transport was indicated, resulting in an estimated $31 million paid
                  improperly. Five percent of transports were found to be in error
                  because the ambulance supplier, though contacted, did not respond to

OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                           i
                                                                                Report Template Version = 03-01-05_rev.07




E X E C U T I V E                       S U          M M A R Y


                   our request for documentation, resulting in an estimated $150 million in
                   improper payments.

                   We found statistically significant differences in coverage error rates
                   when we compared either dialysis (27 percent) or nonemergency
                   transports (20 percent) to emergency transports (7 percent). We did not
                   find a statistically significant difference when we compared dialysis
                   transports to nonemergency transports. Level of service error rates
                   varied little across these categories.
                   Contractor safeguards are insufficient to identify and prevent
                   improper payments for ambulance transports. The Medicare program
                   mandates very few specific program safeguards to detect and prevent
                   payment for improper ambulance transports. Under existing
                   safeguards, contractors may choose the prepayment edits they use to
                   screen claims for ambulance transports and the extent of postpayment
                   activities they conduct. We found that contractors use few prepayment
                   edits consistently. Less than half of the contractors we surveyed
                   conducted postpayment review of ambulance claims. Of those
                   contractors that conducted postpayment reviews of ambulance claims,
                   most conducted only one or two postpayment reviews in CYs 2001 and
                   2002.

                   There are no uniform requirements regarding the kind of
                   documentation contractors review to determine the appropriateness of
                   ambulance transports. We were informed by contractors that contractor
                   medical reviewers are allowed to and often do determine the
                   appropriateness of the transport without obtaining additional
                   documentation from the ambulance supplier or third-party providers,
                   which include dialysis facilities, hospitals, and nursing homes. Our
                   medical reviewers reported that making a determination of coverage
                   required synthesizing information from various sources, particularly
                   from third parties.

                   Our findings indicate that third-party providers that request ambulance
                   transports may not be aware of Medicare’s requirements for
                   nonemergency ambulance transports. We found that almost two out of
                   three noncovered transports originated at third-party facilities where it
                   is unlikely that the patient initiated the ambulance transport. We
                   found that contractors made minimal effort to educate these health care
                   providers regarding coverage and level of service criteria for ambulance
                   transports.



 OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          ii
                                                                                Report Template Version = 03-01-05_rev.07




E X E C U T I V E                       S U          M M A R Y 




                   RECOMMENDATIONS
                   The Centers for Medicare & Medicaid Services should implement
                   program integrity activities designed to reduce improper payments
                   for ambulance transports at greatest risk for error.
                   The Centers for Medicare & Medicaid Services (CMS) should:

                   (1) Consider instructing all Medicare contractors to implement
                   prepayment edits that target dialysis and nonemergency ambulance
                   transport claims;

                   (2) Instruct Medicare contractors, when conducting postpayment
                   medical reviews, to obtain documentation from ambulance suppliers
                   and third-party providers to determine that ambulance transports
                   meet program requirements; and

                   (3) Direct Medicare contractors to educate third-party providers who
                   initiate ambulance transports about the appropriate use of Medicare’s
                   nonemergency ambulance transport benefit. Once education has
                   occurred, CMS may want to revisit the issue of noncovered ambulance
                   transports ordered by third-party providers. If a problem still exists,
                   CMS may want to determine if it can take administrative action and
                   refer any potentially fraudulent or abusive providers to OIG.

                   In addition to these recommendations, we have forwarded information
                   on noncovered, miscoded, and undocumented services we identified in
                   our sample to CMS for appropriate action.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS’s comments are summarized below and included in their entirety
                   as Appendix D.

                   CMS concurred with our recommendations. CMS indicated that it will
                   advise all contractors to consider implementing prepayment edits for
                   trips with an origin or destination modifier for a dialysis facility, as well
                   as nonemergency transports to and from a hospital, nursing home, or
                   physician’s office. In addition, CMS noted that it will encourage
                   contractors to consider obtaining documentation from ambulance
                   suppliers and third-party providers to determine that ambulance
                   transports meet program requirements on postpayment review. CMS
                   also stated that it plans to encourage Medicare contractors to consider
                   educating suppliers and third-party providers who initiate ambulance

 OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         iii
                                                                               Report Template Version = 03-01-05_rev.07




                  transports about the appropriate use of Medicare’s nonemergency
                  ambulance transport benefit. If education proves ineffective,
                  contractors should then determine if they can take administrative
                  action and refer any potentially fraudulent or abusive providers to OIG.

                  CMS’s comments did not warrant any revisions to the results of our
                  review or our recommendations.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          iv
                                                                      Report Template Version = 03-01-05_rev.07




Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY ....................................
i


         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                    Twenty-five percent of ambulance transports paid in error . . . . . 14 


                    Contractor safeguards insufficient . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

                    A: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . 30 


                    B: Significance Tests for Selected Statistics . . . . . . . . . . . . . . . . . 31 


                    C: Coverage Determinations by Documentation Level. . . . . . . . . 32 


                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

                                                                               Report Template Version = 03-01-05_rev.07




Δ   I N T R O D U C T I O N                                          



                  OBJECTIVE
                  To determine whether ambulance transports met Medicare’s coverage
                  and level of service criteria and to evaluate the safeguards in place to
                  identify improper payments.


                  BACKGROUND
                  Previous Office of Inspector General (OIG) studies indicated that
                  Medicare’s ambulance transport benefit was highly vulnerable to abuse.
                  A 1994 report found that 70 percent of sampled dialysis-related
                  transport claims were paid in error. A 1998 report found that two-
                  thirds of sampled ambulance transports were paid in error.
                  Nonemergency transports made up 70 percent of these transports paid
                  in error.1 OIG recommendations to address these issues included
                  implementing prepayment edits designed to identify specific kinds of
                  ambulance transports (e.g., dialysis transports) and education efforts
                  targeted at Medicare ambulance suppliers, dialysis facilities, and
                  beneficiaries. This OIG work also contributed to changes in ambulance
                  policy and reimbursement practices as part of the Balanced Budget Act
                  (BBA) of 1997.2
                  In calendar year (CY) 2002, Medicare paid approximately $3 billion for
                  ambulance transports.3 Ambulance transports in emergency and
                  nonemergency situations are payable when these transports meet
                  Medicare’s program requirements as set forth in section 1861(s)(7) of
                  the Social Security Act (the Act) and implementing regulations found in
                  42 CFR §§ 410.40 and 410.41. An ambulance transport is considered
                  covered when transportation by means other than ambulance would
                  jeopardize the patient’s health. Once coverage requirements are met,
                  requirements regarding medical necessity (e.g., the appropriate level of
                  service necessary for the diagnosis or treatment of the patient’s illness
                  or injury) must be met.
                  Medicare Coverage of Ambulance Transports
                  Medicare pays for emergency and nonemergency ambulance services
                  when a beneficiary’s medical condition at the time of transport is such
                  that other means of transportation, such as taxi, private car, wheelchair
                  van, or other type of vehicle, is contraindicated (i.e., would endanger the
                  beneficiary’s medical condition).4 Medicare does not cover means of
                  transport other than ambulance.



OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          1
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    Emergency ambulance transport. An emergency transport is one provided
                    after the sudden onset of a medical condition that manifests itself with
                    acute symptoms of such severity that the absence of immediate medical
                    attention could reasonably be expected to:
                    o 	 Place the patient’s health in serious jeopardy,

                    o 	 Result in serious impairment of bodily functions, or

                    o 	 Result in serious dysfunction of any bodily organ.

                    Symptoms or conditions that may warrant an emergency ambulance
                    transport include, but are not limited to:
                    o 	 Severe pain or hemorrhage,

                    o 	 Unconsciousness or shock,

                    o 	 Injuries requiring immobilization of the patient,

                    o 	 Patient needs to be restrained to keep from hurting himself or
                           others,
                    o 	 Patient requires oxygen or other skilled medical treatment during
                           transportation, and
                    o 	 Suspicion that the patient is experiencing a stroke or myocardial
                           infarction.5
                    Nonemergency ambulance transports. Nonemergency transportation by
                    ambulance is appropriate when a patient is bed-confined AND his/her
                    condition is such that other methods of transportation are
                    contraindicated; OR if the patient’s condition, regardless of bed-
                    confinement, is such that transportation by ambulance is medically
                    required (e.g., the patient is combative and a danger to himself or
                    others). While bed-confinement is an important factor to determine the
                    appropriateness of nonemergency ambulance transports, bed-
                    confinement alone is neither sufficient nor necessary to determine the
                    coverage for Medicare’s ambulance benefits.

                    To be considered bed-confined, the patient must meet all three of the
                    following criteria:
                    o 	 Be unable to get up from bed without assistance,

                    o 	 Be unable to ambulate, and

                    o 	 Be unable to sit in a chair or wheelchair.6




 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          2
                                                                                   Report Template Version = 03-01-05_rev.07




I N T R O D         U C T         I O N


                      Nonemergency transports are often scheduled in advance and are
                      repetitive in nature, such as for patients with end-stage renal disease
                      requiring maintenance treatments three times a week.

                      In these circumstances, ambulance suppliers must obtain or
                      document all attempts to obtain a Physician Certification Statement
                      (PCS) stating the reasons a patient requires nonemergency
                      transportation by ambulance. The PCS or proof of the supplier’s
                      attempt to obtain it is required within 48 hours after providing the
                      service. The PCS is effective for 60 days from the date it is signed.7
                      Level of Service
                      While program requirements determine whether Medicare will pay for
                      an ambulance transport, the level of service required by the patient’s
                      condition determines the amount paid for a transport. Medicare only
                      pays for the level of service deemed medically necessary. A transport
                      denied due to level of service under section 1862(a)(1) of the Act, is
                      usually reimbursed at a lower rate reflecting the lower level of service
                      judged appropriate, rather than denied outright.8
                      Medicare pays for different levels of ambulance services. These service
                      levels include Basic Life Support (BLS), Advanced Life Support (ALS),
                      Specialty Care Transport (SCT), and air transport (fixed-wing and
                      rotary-wing transport).9 These levels of service are differentiated by the
                      qualifications and training of the crew and the equipment and supplies
                      available on a vehicle that allows for treatment of more complex medical
                      conditions. For example, to provide an ALS-level service, an ambulance
                      must be equipped with specialized equipment, such as defibrillators and
                      pulmonary/cardiac monitors and certain medications. Another
                      distinction between ALS and BLS is the personnel that staff the
                      ambulance. In most States, BLS services are rendered by basic and
                      intermediate emergency medical technicians (EMT), while more
                      intensive ALS services are provided by paramedic EMTs. The SCT
                      transports require a level of service beyond what a paramedic can
                      provide, such as care that must be provided by a medical professional—
                      for example, a nurse or a respiratory therapist.10
                      Payments for Ambulance Transports
                      Providers of ambulance services submit claims for payment to carriers
                      or fiscal intermediaries (FIs). Independent ambulance suppliers bill
                      carriers on the uniform Medicare billing form, the Centers for Medicare
                      & Medicaid Services (CMS) 1500. Provider-based ambulance suppliers
                      (owned by or affiliated with a Medicare Part A provider such as a

  OEI-05-02-00590     M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          3
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    hospital) bill the FIs on the uniform billing form known as the UB-82
                    (form CMS-1450). Ambulance suppliers are not required to submit
                    additional documentation for billing purposes. However, Medicare rules
                    require ambulance suppliers to retain appropriate documentation that
                    contains information about the personnel involved in the transport and
                    the patient’s condition, and to obtain a PCS for nonemergency
                    transports. These documents must be kept on file and made available
                    for contractor review if requested.11
                    Historically, ambulance payment was based solely on “reasonable
                    charges” for independent suppliers or “reasonable cost” for hospital-
                    based ambulance companies. The BBA required the Secretary of the
                    Department of Health and Human Services to replace these methods
                    with a national fee schedule.12 Transition to the fee schedule began
                    April 1, 2002. During the transition period, payment is based on a
                    blend of a provider’s old method and the fee schedule rates, with the fee
                    schedule portion increasing to 100 percent beginning in 2006.13 The
                    amount Medicare pays for covered ambulance transports is determined
                    by the level of service required by the patient’s condition.

                    The Medicare Prescription Drug, Improvement, and Modernization Act
                    of 2003 (MMA) contains provisions affecting ambulance payments. The
                    MMA establishes a regional ambulance fee schedule payment rate for
                    services furnished between July 1, 2004, and December 31, 2009. For
                    this same period, it increases the fee schedule payment amount for
                    transports originating in the least-populated rural areas. It also adjusts
                    ground mileage payments for transports greater than 50 miles provided
                    between July 1, 2004, and December 31, 2008. For the period July 1,
                    2004, through December 31, 2006, reimbursement under the fee
                    schedule for ambulance transports that originate in rural and urban
                    areas increase by 2 percent and 1 percent, respectively.14
                    Contractor Program Safeguards
                    Carriers and FIs that process and pay Medicare claims, play a vital role
                    in ensuring the integrity of Medicare payments through their program
                    safeguard activities. Program safeguards include activities aimed at
                    detecting and preventing improper Medicare payments. Ambulance
                    program safeguards can include prepayment and postpayment
                    activities, as well as educational efforts aimed at the ambulance
                    suppliers, health care providers, and beneficiaries to inform them of
                    program requirements for ambulance transports.



 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          4
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    To assist contractors in program safeguard efforts, CMS has contracted
                    with entities to promote the integrity of the Medicare program. These
                    entities, known as program safeguard contractors (PSC), perform some
                    or all of the activities currently done by FIs and carriers with the
                    exception of processing and paying claims. PSC activities can include
                    provider activity reviews, including medical, utilization, and fraud
                    reviews; cost report audits; Medicare secondary payer determinations;
                    provider and beneficiary education regarding program integrity; and
                    developing and updating a list of durable medical equipment that is
                    frequently subject to unnecessary utilization.15
                    Prepayment edits and reviews. Prepayment edits are automated
                    procedures that identify claims that require further manual review by
                    claims processing clerks or medical professionals (e.g., nurse
                    practitioners or registered nurses). CMS requires few prepayment edits
                    specifically for ambulance claims. Both the carriers and the FIs are
                    required to edit zip codes for validity.16 FIs must edit ambulance claims
                    to ensure proper reporting.17
                    If a claim is rejected due to an edit, it is subjected to a medical review,
                    which consists of examining the information contained on the claim
                    itself. Usually, the contractor reviews the claim, any other documents
                    submitted with the claim, and the patient claim history files. For a
                    small percentage of claims, the contractor requests additional records
                    from the suppliers/providers that document the service that was billed
                    to determine if it meets coverage and level of service criteria.18
                    In the case of an ambulance claim review, the contractor requests
                    records on file with the ambulance supplier. These records vary by
                    ambulance supplier in the amount of detail and information they
                    contain. Generally, this additional documentation consists of a “trip
                    ticket” and, for nonemergency transports, a PCS documenting why the
                    patient requires transport by ambulance. The trip ticket is created by
                    the ambulance supplier and contains information regarding the date,
                    mileage, crew, origin, destination, and type and level of ambulance
                    service provided. It also contains, to varying degrees, descriptive
                    information regarding the condition of the patient and the type of
                    service and supplies provided to the patient while in transport.19
                    Reviewing a medical record or other documentation on file to make a
                    claim payment determination can be resource intensive for the
                    Medicare program, providers, suppliers, and physicians. While medical
                    review activities are important to ensure that claims are paid correctly,

 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          5
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    CMS’s policy is to weigh the relative benefit of appropriate payments
                    with the expense of conducting medical reviews.20
                    Postpayment reviews. CMS does not specifically require contractors to
                    conduct postpayment reviews of ambulance claims. Apart from the
                    general Medicare requirement that contractors conduct audits
                    necessary to ensure that proper payments are made, there is no specific
                    requirement to regularly review claims for specific services, such as
                    ambulance services.21 Generally, postpayment activities involve
                    analysis of claims data after payment has been made to identify
                    aberrant billing patterns by service or provider type. Postpayment
                    review can be done on an individual claim, but typically is done on a
                    statistically valid sample of claims. As in prepayment review, a
                    postpayment review typically consists of examining the claim and any
                    other documents submitted with it. On occasion, contractors request
                    more documentation for these reviews. The findings of these
                    postpayment analyses are often the basis for implementing prepayment
                    edits or for targeting specific providers for corrective actions or
                    education.22
                    Educational efforts. Contractor and CMS educational efforts are aimed at
                    the health care community to inform them of program requirements and
                    provide other useful information. Educational activities for Medicare
                    services as well as ambulance services encompass a broad range of
                    activities that include: (1) issuing bulletins or memorandums to the
                    supplier community, (2) corresponding with a supplier who has
                    consistently submitted claims in error, (3) conducting periodic
                    conferences or conference calls with all interested parties regarding
                    questions or clarifications of current or new policy, (4) making
                    contractor personnel available to answer individual provider questions,
                    (5) presenting information at public meetings where Medicare issues are
                    discussed, and (6) maintaining Web sites that convey information
                    regarding ambulance policies and billing procedures.
                    Liability for Ambulance Transports That Do Not Meet Program Requirements
                    Liability for any overpayment resulting from a denied ambulance
                    transport claim depends on the type of denial. When a claim is denied
                    for coverage reasons (such as when other forms of transportation are not
                    contraindicated), the beneficiary is liable for any overpayment unless he
                    or she lacks constructive knowledge that the service is not covered, or is
                    otherwise without fault.23



 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          6
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    If the claim is denied due to level of service requirements (section
                    1862(a)(1) of the Act), it is usually not denied in total. Generally, these
                    types of denials result in the claim being down-coded to a lower level of
                    ambulance service. If an overpayment results, the ambulance supplier
                    is liable unless the beneficiary signs an Advanced Beneficiary Notice
                    that shifts liability to the beneficiary.24 The Advanced Beneficiary
                    Notice is rarely used and is only appropriate in limited, nonemergency
                    situations.25


                    METHODOLOGY
                    We used multiple methodologies to determine the appropriateness of
                    Medicare payments for ambulance transports. To compare error rates
                    for different kinds of claims, we used a stratified random sampling
                    methodology to select claims for review. For our sampled claims, we
                    compared the error rates for transports occurring before implementation
                    of the fee schedule (April 1, 2002) and after. Our analysis revealed no
                    difference in error rates between the two periods.

                    We conducted a medical review of ambulance supplier and third-party
                    provider records associated with the patient for the date of transport on
                    the selected claim. To determine what payment safeguards were in
                    place to prevent and detect improper payments for ambulance
                    transports, we interviewed officials from carriers and FIs. We did not
                    verify contractor statements or written information provided about
                    program safeguards.
                    Sample Selection
                    We defined our population as all Part A and Part B final action claims
                    for ground ambulance transports occurring in CY 2002. The population
                    consisted of 8,729,183 claims with a total allowed amount of
                    $2,966,104,982.

                    To detect statistical differences in error rates among categories of
                    ambulance transports (dialysis, nonemergency, and emergency), we
                    selected a representative sample of ambulance claims using a stratified
                    random sampling strategy.

                    The sample size was 720 claims submitted to and paid by carriers and
                    FIs for ambulance transports in CY 2002. We selected the sample from
                    CMS’s National Claims History database. We grouped the claims into
                    strata according to the origin/destination of the transport (dialysis
                    facility) and the type of transport (emergency and nonemergency). We
                    selected 240 claims for each of 3 strata consisting of: (1) transports

 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          7
                                                                                            Report Template Version = 03-01-05_rev.07




I N T R O D                U C T              I O N


                              to/from dialysis facilities, (2) nonemergency transports (excluding
                              dialysis transports), and (3) emergency transports (also excluding
                              dialysis transports).

                              We excluded 69 claims from our original sample for the following
                              reasons: ongoing investigations by OIG (17 claims), unable to contact
                              the ambulance supplier (19 claims), the ambulance supplier was out of
                              business (12 claims), contractors did not provide us with claim
                              information (11 claims), and claims were used as part of the medical
                              review pretest (10 claims). A description of the population and sample
                              for each stratum appear in Table 1.

Table 1: Stratified Sample of Ambulance Claims

Transport Type             Stratum          Population               Original    Excluded        Revised    Undocumented       Documented
                           Number                                    Sample        Claims         Sample            Claims          Claims
                                                                        Size                         Size

Dialysis                             1            866,379                240           38            202                12              190

Nonemergency                         2         2,870,482                 240           17            223                14              209

Emergency                            3         4,992,322                 240           14            226                 9              217

   Totals                                      8,729,183                 720           69            651                35              616


Source: OIG analysis of CY 2002 ambulance claims data from the National Claims History Database, 2005.



                              Response to OIG Request for Documentation
                              For the sampled claims, we requested records from Medicare’s
                              contractors, ambulance suppliers, and third-party providers associated
                              with the transport. Table 2 contains a list of documents we requested
                              from each source.




   OEI-05-02-00590            M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                           8
                                                                                                      Report Template Version = 03-01-05_rev.07
  I N T R O D                 U C T            I O N 



Table 2: Documents Requested by Source

   st                               nd                                                                       rd
 1 Tier Documentation             2 Tier Documentation                                                      3 Tier Documentation

                                                                                                                                                       Nursing
     Medicare Contractors             Ambulance Suppliers                             Dialysis Facilities                     Hospitals              Facilities
       -CMS 1500/UB 82                         -Trip report                       -Treatment record                 -Admit/discharge       -Admit/discharge
               or printout               -Dispatch record                      -Social worker notes                            records                records
      of electronic claim          -Physician certification                          -Any documents                    -Order sheet(s)       -Order sheet(s)
    -Ambulance supplier                          statement                                  containing              -Patient history &     -Most recent care
     contact information              -CMS 1500/UB 82 or                           information about                    physical exam                   plans
                                     printout of electronic                    patient’s condition at                    -Rx/treatment          -Most recent
                                                      claim                     the time of transport                          records      patient history &
                                                                                                                          -Nurse notes        physical exam
                                                                                                                      -Progress notes          -Rx/treatment
                                                                                                                  -Consultation notes                 records
                                                                                                                       -Therapy notes           -Nurse notes
                                                                                                                     -Dialysis records      -Consultation or
                                                                                                                           -Behavioral        ancillary notes
                                                                                                                          management             -Behavioral
                                                                                                                   monitoring records           management
                                                                                                                                                  monitoring
                                                                                                                                                      records



                                   We made a minimum of three attempts to obtain documentation from
                                   the contractors and the ambulance suppliers. To avoid putting an
                                   unnecessary burden on third-party providers, we made two attempts to
                                   obtain documentation from them. We used mail, phone, fax, or a
                                   combination of these methods to request documentation.

                                   Of the 651 sampled claims, we received ambulance supplier
                                   documentation for 616 claims and no documentation for 35 claims. Of
                                   the 616 claims, we received third-party provider documentation for
                                   547 claims. Table 3 illustrates the number of claims for which we
                                   received documentation. This documentation was then forwarded to our
                                   medical review contractor.


Table 3: Claims Documented and Reviewed by Transport Type
Transport Type                                              Contractor              Ambulance Supplier              Third-party Provider     Undocumented
                                                       Documentation                    Documentation                    Documentation               Claims
                                                             Received                         Received                         Received      (Not Reviewed)
                                                     (1st Tier Medical                (2nd Tier Medical                (3rd Tier Medical
                                                              Review)                          Review)                          Review)
Dialysis Transports                                               190                              190                              158                     12
Nonemergency Transports                                                  209                           209                          194                     14
Emergency Transports                                                     217                           217                          195                      9

   Totals                                                                616                           616                          547                     35


Source: OIG analysis of CY 2002 ambulance claims data from the National Claims History Database, 2005.




         OEI-05-02-00590           M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                                           9
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N




                    OIG Medical Review
                    We contracted for the services of a medical review company that
                    provided registered nurses to review the records and determine whether
                    the ambulance transports met Medicare’s program requirements.
                    Reviewers had several years of nursing, quality management, or claims
                    review experience. They also had prior experience applying CMS’s
                    coverage policies and guidelines. Reviewers completed a medical review
                    instrument for each ambulance trip billed on the sampled claims.

                    Our medical reviewers conducted a three-tier review. The first tier
                    consisted of reviewing only the claim form provided by the carriers and
                    FIs. The second tier involved reviewing the claim form as well as
                    documentation we obtained from the ambulance supplier. The third tier
                    involved a review of all documents including medical records submitted
                    by the third-party providers. Table 3 provides details regarding the
                    number of claims reviewed in each of the three tiers.
                    Claims Analysis
                    Of the 616 claims for which we received ambulance supplier
                    documentation, 547 also had documentation from at least one third-
                    party provider (either the origin or the destination of the transport).
                    The 35 undocumented claims were assumed not to have met coverage
                    requirements at any of the 3 tiers of medical review and are counted as
                    errors. We conducted our analysis on a final sample of 582 claims (547
                    third-tier reviewed claims and 35 undocumented claims considered in
                    error) except for our analysis of the levels of documentation. Table 4
                    illustrates the number of claims we analyzed for this report.

                     Table 4: Claims Analysis

                     Claim Type                                                                  Stratum   Claims Analyzed
                                                                                                 Number

                     Dialysis Transports                                                               1               158
                     Nonemergency Transports                                                           2               194
                     Emergency Transports                                                              3               195

                     Subtotal of Claims                                                                                547

                     Undocumented Claims (Automatic Errors)                                                             35

                          Total Claims Analyzed                                                                        582


                   Source: OIG analysis of CY 2002 ambulance claims data from the National Claims History Database, 2004.



 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                          10
                                                                               Report Template Version = 03-01-05_rev.07



 I N T R O D          U C T               I O N 




                  We analyzed the medical reviewers’ determinations using SAS,
                  SUDAAN, and Nud*IST software. We tested for statistical differences
                  in error rates between the strata at the 0.05 significance level. We also
                  estimated the dollar amounts paid in error in each stratum. All results
                  are weighted appropriately and are reported based on the third-tier
                  medical review determinations except where noted. Details of
                  significance tests and confidence intervals for selected statistics are
                  included in Appendixes A and B. For details about medical review
                  determinations and documentation levels, see Appendix C.
                  Structured Interviews
                  In addition to the medical review, we contacted 23 contractors who hold
                  73 contracts to process and pay Medicare’s ambulance claims. For
                  purposes of this report, we refer to each Medicare contract as a contract
                  jurisdiction. These 23 contractors processed over 80 percent of all
                  ambulance claims submitted in CY 2002. We conducted structured
                  interviews with officials from these Medicare contractors to identify the
                  safeguards in place to prevent improper payments for ambulance
                  transports. Table 5 contains a description of the types of contractors we
                  contacted for structured interviews. Contractors provided the
                  information verbally and in written form, e.g., manuals, guidelines, etc.


                  Table 5: Structured Interviews with Contractor Representatives




                                                                                                Number of Contractors
                   Type of Contractor                                                                     Interviewed

                   Carrier - Process Medicare Part B Claims                                                         7

                   Fiscal Intermediary – Process Medicare Part A
                                                                                                                    5
                   Claims
                   Carrier and Fiscal Intermediary Process Both
                                                                                                                   11
                   Medicare Part A and B Claims

                        Total                                                                                      23



                  We also conducted interviews with staff at the following organizations:
                  CMS headquarters, two CMS regional offices, one PSC , the American
                  Ambulance Association, the American Kidney Association, and two
                  major ambulance suppliers.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         11
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    Scope
                    In addition to the previous and current OIG work examining ambulance
                    transports, CMS, as part of its Comprehensive Error Rate Testing
                    (CERT) program, measures errors in ambulance transports. The goal of
                    CERT is to measure the performance of CMS’s contractors by
                    calculating a paid claims error rate. CMS bases the rate on the dollars
                    paid after the contractor makes its payment decision on a claim. The
                    paid claims error rate is a percentage of dollars that contractors
                    erroneously allowed to be paid. In addition to the paid claims error
                    rate, CMS calculates a provider compliance error rate and a services
                    processed error rate.

                    In comparison, OIG’s objective was to estimate a national paid claims
                    error rate for ambulance transports, as well as to compare error rates
                    among emergency, nonemergency, and dialysis transports. The OIG
                    study was not designed to reproduce, or to review the CERT paid claims
                    error rate.

                    Because the goals of the OIG review and CERT differ, the respective
                    methodologies used to calculate the error rates differ. The OIG review
                    included the following factors, differentiating it from CMS’s CERT:
                    o 	 A stratified sample by type of ambulance transport;

                    o 	 Part A and Part B ambulance claims; and

                    o 	 A multitiered review with increasing levels of documentation
                           including information provided by third-party sources such as
                           hospitals, nursing homes, and dialysis facilities.

                    The CERT program includes a random sample by contractor; includes
                    only Part B claims; and reviews documentation provided by the
                    ambulance supplier, which may not include third-party documentation
                    for all claims.

                    In addition, there are differences in how the CERT and OIG report the
                    calculated error rates. As mentioned previously, CMS calculates three
                    different error rates. For the paid claims error rate and provider
                    compliance error rate, CMS bases the rate on dollars. For the services
                    processed error rate, CMS bases the error rate on the number of
                    services. The OIG review bases the error rate on the number of claims.
                    In addition to the overall fee-for-service error rate, CMS calculates error
                    rates for individual contractors. The OIG review calculates error rates
                    for the different types of ambulance transports and projects the error
                    rate nationally, as well as dollars associated with claims paid in error.

 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         12
                                                                                 Report Template Version = 03-01-05_rev.07




I N T R O D        U C T            I O N


                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         13
                                                                                      Report Template Version = 03-01-05_rev.07




 Δ       F I N D I N G S



Twenty-five percent of ambulance transports did                We found that one in four
     not meet Medicare program requirements,                   ambulance transports in CY 2002
           resulting in an estimated $402 million              did not meet Medicare program
                                                               requirements. There were three
                           of improper payments
                                                               types of errors: (1) transports that
                         did not meet Medicare’s coverage requirements, (2) covered transports
                         that did not meet level of service requirements, and (3) transports for
                         which the ambulance supplier did not submit documentation to
                         substantiate the ambulance transport claim.



                       Table 6: Coverage, Level of Service, and Documentation Errors for Ambulance Transports

                                                                               Sample

                                                                           (N=582 Claims)                       Projected

                                                                                       Allowed            Claims                      Allowed
                        Type of Error                                     Claims      Amounts        (Proportion)                  Amounts

                        Coverage                                               94     $22,262.70           12.84%         $220,305,387.22

                        Level of Service                                       38      $2,352.18            8.72%           $31,499,974.86
                        Undocumented                                           35     $11,648.83            5.44%         $149,886,464.66
                          - Nonresponse                                        34     $11,283.59            5.39%         $148,319,948.49
                          - Missing documentation                               1       $365.24             0.05%               $1,566,516.17

                            Total Errors                                      167     $36,263.71           24.77%         $401,691,826.73

                       Source: OIG analysis of CY 2002 ambulance claims data from the National Claims History Database, 2004.




                         Thirteen percent of ambulance transports did not meet Medicare’s coverage
                         criteria, resulting in an estimated $220 million in improper payments
                         More than one in eight claims did not meet Medicare’s coverage criteria
                         for ambulance transport. In these instances, failure to meet coverage
                         criteria means that the patient’s condition did not warrant transport by
                         ambulance; rather, the patient could have been transported by other
                         means such as taxi, private car, wheelchair van, or another type of
                         vehicle. Pursuant to section 1861(s)(1) of the Act, when other means of
                         transport can be utilized without endangering the individual’s health
                         (whether or not such other transportation is actually available), no
                         payment may be made for ambulance service.


     OEI-05-02-00590     M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                              14
                                                                                Report Template Version = 03-01-05_rev.07




F 	I N D I N G      S


                   Typical examples of transports determined by medical reviewers to be in
                   error included the following:
                   o 	 Although the patient required continuous oxygen to sit up and to
                          transfer from bed to a chair, a wheelchair van would have been
                          more appropriate, particularly when the trip was only a distance
                          of 1 mile.
                   o 	 The patient was very active at the skilled nursing facility. The
                          patient sat up in a wheelchair while working at the gift shop. The
                          patient also served on the nursing home patient council. In this
                          case, use of a wheelchair van would have been more appropriate.
                   o 	 The patient was able to get around in a wheelchair, although the
                          patient needed assistance getting into the wheelchair. Transport
                          to the dialysis facility via ambulance was inappropriate. A
                          wheelchair van would have been more appropriate since the
                          driver, skilled nursing facility staff, or dialysis staff could provide
                          assistance.
                   Statistically significant differences in coverage error rates were found when
                   comparing different categories of ambulance transports
                   Dialysis transports (27 percent) and nonemergency transports
                   (20 percent) had a statistically significant higher coverage error rate
                   than emergency transports (7 percent). The difference between dialysis
                   and nonemergency transports was not statistically significant. Table 7
                   illustrates the error rates and the estimate of dollars paid in error.
                   Refer to Appendix B for confidence intervals.

                     Table 7: Coverage Point Estimates (Percent and Dollars) by Stratum

                     Transport Type (Stratum)                                        Point Estimate        Point Estimate
                                                                                  (Percent in Error)   (Dollars in Error in
                                                                                                                  Millions)
                     Dialysis Transports (N=158 claims)                                    27.22 %                 $ 47.93
                     Nonemergency Transports (N=194 claims)                                19.59 %                 $101.33
                     Emergency Transports (N=195 claims)                                    6.67 %                 $71.05*
                          All Transports (N=547 claims)                                    12.84 %                $220.31


                   Source: OIG Analysis of CY 2002 ambulance claims data from the National Claims History Database, 2004.




                      * Relative precision exceeds 50 percent. See Appendix A for confidence intervals for
                   select statistics.



 OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                           15
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      Dialysis transports had a 27-percent coverage error rate. Our medical
                      reviewers determined that 27 percent of ambulance transports to or
                      from dialysis facilities did not meet Medicare’s coverage criteria,
                      resulting in an estimated $48 million in improper payments.

                      The ongoing and repetitive nature of dialysis treatment makes
                      transports to and from such treatment vulnerable to abuse. For
                      instance, physicians or other health care providers may sign a PSC
                      initiating a standing order for ambulance transport valid for 60 days.
                      This ensures that persons with end-stage renal failure requiring
                      dialysis treatments (usually three times a week), and whose condition
                      warrants ambulance transport receive the service. While the condition
                      of some patients warrants repetitive, scheduled ambulance transports
                      for dialysis treatment, many dialysis transports do not meet coverage
                      criteria.
                      Nonemergency transports had a coverage error rate of 20 percent.
                      Nonemergency ambulance transports (not including dialysis trips) had a
                      coverage error rate of 20 percent resulting in an estimated $101 million
                      in erroneous payments. These transports accounted for most of the
                      money we estimate was paid due to coverage errors. Nonemergency
                      transports have a lower error rate than dialysis transports, but account
                      for the higher estimate of erroneous payments because of their higher
                      volume.

                      Our medical reviewers expressed concern that ambulance vehicles are
                      being misused as taxis or to facilitate transfers into and out of vehicles.
                      Here is an example of this misuse of ambulance services recounted by
                      our medical reviewers:

                                 Pt [patient] had no ongoing assessment requirements
                                 during transport. Assist available at hospital & SNF
                                 [skilled nursing facility] to transfer patient. Stretcher van
                                 would have been adequate based on patient’s ability to
                                 self-propel wheelchair and the trip being only 1 mile.

                      This patient could have been transported in an alternative vehicle, but
                      because he or she required assistance getting into and out of the vehicle,
                      an ambulance was used to provide the necessary “lift” service. The
                      coverage criteria, pursuant to section 1861(s)(1) of the Act, are clear
                      that the need for transfer does not warrant an ambulance.




    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         16
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      Emergency transports had a coverage error rate of 7 percent. Emergency
                      transports had the lowest coverage error rate and accounted for an
                      estimated $71 million* paid due to coverage error. The estimate of
                      dollars paid in error for emergency transports is higher than the
                      estimate for dialysis transports due to the higher volume of emergency
                      transports and the higher reimbursement for emergency transports.
                      Almost 60 percent of all ambulance claims processed in CY 2002 were
                      for emergency transports.

                      Emergency transport coverage errors were typically due to
                      discrepancies between ambulance supplier documentation and third-
                      party provider documentation. One example, noted by our medical
                      reviewers, involved a situation in which the ambulance supplier
                      documentation listed a “slip and fall,” but the third-party provider
                      documentation (emergency room records) made no mention of such an
                      incident. This discrepancy led our reviewers to conclude that the
                      ambulance transport was not warranted.

                      Beyond discrepancies in documentation, our reviewers found few
                      problems with the Medicare contractors’ decisions to pay the emergency
                      ambulance claims in our sample. The definition of an emergency is
                      based on the response phase of the call (e.g., from firehouse to scene).
                      These runs (911 calls) are generally considered emergencies. In some
                      cases the ambulance supplier understood the call to be an emergency,
                      although the actual ambulance trip (from scene to hospital) was not. An
                      example of this situation is reflected in the following scenario recounted
                      by our medical reviewers:

                                 . . . an elderly woman notified her daughter she bumped her
                                 head on the bathtub and had a headache, the daughter
                                 suspects a head injury and calls an ambulance. On
                                 evaluation at the emergency department, the patient is
                                 found to have no significant problems and is referred to her
                                 primary care physician.

                      In such cases, our medical reviewers applied Medicare’s policy and did
                      not overturn the decision to cover the transport.




                         * Relative precision exceeds 50 percent. See Appendix A for confidence intervals for
                      selected statistics.



    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         17
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G        S           



                      Of all transports that met Medicare’s coverage criteria, 9 percent did not
                      meet the level of service billed, resulting in an additional estimated
                      $31 million in improper payments
                      Nine percent of the transports that met coverage criteria were billed at
                      a more intense level of service than was medically necessary. Pursuant
                      to section 1862(a)(1) of the Act, Medicare pays only for the category of
                      service provided and then only when the category of service is medically
                      necessary.

                      One example, noted by our medical reviewers, involved a patient
                      transferred from a skilled nursing facility to a hospital. The ambulance
                      crew noted that the patient was combative at the scene and had other
                      conditions that warranted an ambulance transport. However, vitals
                      were not taken, no interventions were required, and the transport was
                      documented as uneventful. This transport should have been paid at the
                      BLS level but was paid at an ALS level.
                      Level of service error rates varied little across dialysis, nonemergency,
                      and emergency transports. While differences in coverage error rates for
                      the various types of ambulance transports were statistically significant,
                      there was little difference between them concerning level of service.
                      Despite little difference in level of service error rates, almost $21 million
                      of the overpayments resulting from such errors was for emergency
                      transports because these types of transports are paid at a higher rate.
                      Five percent of transports lacked documentation, representing an estimated
                      $150 million in improper payments
                      Transports for which ambulance suppliers did not submit
                      documentation to our office accounted for 5 percent of the overall errors.
                      In all but one of these instances, ambulance suppliers did not respond to
                      our multiple requests for documentation. In that one instance, an
                      ambulance supplier had no record of conducting the transport in our
                      sample and could not locate documentation for it.



       Contractor safeguards are insufficient to            Despite prior OIG
    identify and prevent improper payments for              recommendations to address
                          ambulance transports              ambulance program safeguard
                                                            issues, Medicare mandates very
                      few specific safeguards to prevent improper ambulance payments.




    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         18
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G        S


                      Contractors use few prepayment edits consistently
                      Four of the twenty-three contractors we interviewed screened 100
                      percent of their ambulance claims before they were paid. These four
                      contractors held a total of eight jurisdictional contracts (contracts
                      representing different areas or States). Five of these contracts were for
                      Part A contract jurisdictions with relatively low ambulance claim
                      volume, and three were for Part B contract jurisdictions. One contract
                      jurisdiction had no prepayment edits in place specifically for ambulance
                      claims and another had edits in place only for paper claims.

                      Most of the prepayment edits reported by contractors are automated
                      and result in a suspended or an automatically denied claim. Some of
                      the suspended claims are subjected to further manual review, as
                      discussed later in this report.

                      Table 8 lists prepayment edits that contractors reported using in
                      CYs 2001 and 2002 specifically for ambulance claims. The edits are
                      listed by the number of contract jurisdictions (n=73) with the specific
                      edit in place rather than by the number of contractors (n=23) that used
                      the edit. Contractors may hold more than one contract with CMS to
                      process Medicare claims, and not every contract has the same edits in
                      place.



                      Table 8: Prepayment Edits Used in CYs 2001 and 2002


                      Types of Edits Used                                                          Number of Contracts
                                                                                                   With Edits (N=73)

                      Origin/Destination (i.e., hospital to hospital, nursing home to                                    37
                      physician’s office, dialysis facility to emergency room, all
                      dialysis transports)
                      Mileage                                                                                            27
                      Other (e.g., all ALS transports, all nonemergency transports,                                      19
                      certain modifiers, condition codes, valid contracts between
                      ambulance suppliers and hospitals)
                      Air Ambulance Transports                                                                           13
                      Zip Code                                                                                           12
                      Certain HCPCS and Revenue Codes                                                                    10
                      Missing Information                                                                                 8
                      Certain ICD-9 Codes/Diagnoses                                                                       8
                      Frequency of Transports                                                                             4
                      Specialty Transports                                                                                5
                      Multiple Patient Transports                                                                         4
                      Round-Trip Transports                                                                               3
                             Source: OIG analysis of contractor interview data, 2004.


    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         19
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      Fewer than half of the contractors interviewed reported conducting
                      postpayment reviews of ambulance claims
                      Medicare does not specifically require postpayment reviews of
                      ambulance claims. Contractors decide the degree to which postpayment
                      reviews are conducted and which services or providers/suppliers to
                      target. Only 11 of 23 contractors reported conducting postpayment
                      review of ambulance claims. One contractor reported conducting
                      53 such reviews. Another small contractor was instructed by CMS to
                      conduct postpayment reviews of ambulance transports to dialysis
                      facilities due to widespread problems identified. This contractor
                      conducted 70 reviews during our review period. The majority of
                      contractors reported conducting only one or two reviews in CYs 2001
                      and 2002.
                      There are no uniform requirements regarding documentation that should be
                      reviewed when conducting prepayment or postpayment review of
                      ambulance transports
                      Medicare requires ambulance suppliers, as most other billers, to submit
                      only the claim form (CMS-1500 or UB-82) for payment. The claim form
                      contains general billing information needed for all types of claims (e.g.,
                      patient identifier information), the origin and destination of the
                      ambulance transport, mileage, the general condition of the patient, and
                      the type of service provided (ALS, BLS, etc.).26
                      Ambulance suppliers are not required to submit the trip ticket or the
                      PCS with the claim. While the trip ticket varies by ambulance supplier,
                      it describes in more detail the circumstances of the trip and the
                      condition of the patient. Contractors do not consistently request this
                      documentation when conducting prepayment or postpayment reviews of
                      ambulance transport claims.

                      In only 13 of 73 contract jurisdictions did contractors report requesting
                      third-party medical records to determine whether the transport met
                      coverage and level of service guidelines. In nine of these instances,
                      contractors report “rarely” or “sometimes, but usually not” requesting
                      the third-party medical record.

                      Of those requesting third-party medical records, contractors reported
                      that they were not always successful in obtaining them. Contractors
                      also reported problems with the sufficiency of documentation provided
                      by ambulance suppliers and third parties. Our medical reviewers, as
                      well as two contractors, noted concerns regarding the insufficient
                      amount of documentation submitted by dialysis facilities. Our

    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         20
                                                                                     Report Template Version = 03-01-05_rev.07



   F   I N D I N G            S



                     reviewers noted that information provided was very brief and did not
                     adequately describe the condition of the patient. Dialysis facilities
                     generally maintain progress notes or social worker notes that describe
                     the condition of the patient in detail, but these were often missing.
                     Our medical reviewers found it essential to obtain third-party
                     documentation to determine the appropriateness of ambulance
                     transports. They found that the additional amount of documentation
                     reviewed, particularly that from third parties, increased their ability to
                     determine whether ambulance transports met coverage criteria. Our
                     medical reviewers reported that making a determination of coverage
                     depended on a synthesis of information from various sources. A review
                     based on a single source could result in an inaccurate determination or
                     no determination at all.

                     Chart 1 illustrates the effect documentation has on determining
                     coverage of ambulance transports.


          Chart 1:          100%
  Medical Review
Determinations by            90%

          Level of
                             80%
  Documentation
       Reviewed.             70%


                             60%


                             50%


                             40%


                             30%


                             20%


                             10%


                              0%
                                                      1 (n=616)                        2 (n=616)                         3 (n=547)
                                                                                 Level of Documentation

                                                                       Covered   Not Covered       Unable to Determine



                      Source: OIG analysis of medical reviewer determinations, 2004.


                     The trend shows that, as the amount of documentation increased, the
                     number of claims for which our reviewers were unable to determine
                     whether the claim met coverage criteria decreased and the number of
                     noncovered claims increased. Most of the transports reviewed at
                     Level 1 (based solely on contractor documentation) resulted in an


  OEI-05-02-00590    M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                                      21
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      inability to make a coverage determination. Based on a Level 2 review
                      (contractor and ambulance supplier documentation), the number of
                      claims the reviewers were unable to make a determination about
                      decreased and reviewers began to identify more noncovered transports.
                      The Level 3 review (contractor, ambulance supplier, and third-party
                      provider documentation) resulted in even fewer claims for which our
                      reviewers were unable to make a coverage determination and still more
                      noncovered transports.

                      Obtaining records from third-party providers could help expose cases of
                      document tampering by ambulance suppliers that could uncover cases of
                      fraud or abuse. For example, on March 17, 2005, an ambulance
                      company was sentenced to 5 years’ probation and was ordered to
                      provide community service following its conviction in a Federal fraud
                      case.27 Earlier this ambulance company had agreed to pay $1.6 million
                      to settle allegations that the company submitted false claims to
                      Medicare and entered into a corporate integrity agreement to settle
                      charges that it instructed its EMT and paramedic staff to omit
                      information from ambulance records regarding patients’ ambulatory
                      status. The claims were for noncovered, nonemergency transports for
                      dialysis treatment.28 Also in October 2004, a hospital company, three of
                      its hospitals, and an ambulance company agreed to pay $20 million to
                      settle allegations that they falsified PSCs to obtain reimbursement from
                      Medicare for ambulance transports that did not meet Medicare’s
                      program requirements.29
                      Beneficiaries, third-party providers, and physicians, unlike ambulance
                      suppliers, receive little or no information regarding Medicare requirements
                      for ambulance transports
                      In anticipation of the new ambulance fee schedule implemented in
                      April 2002, contractors issued numerous program memorandums to the
                      ambulance supplier community. To date, contractors have issued more
                      than 600 such memorandums to the ambulance supplier community.
                      These provider bulletins cover a wide variety of subjects ranging from
                      policy changes, billing instructions, and clarifications, to other types of
                      educational information.

                      However, little or no effort has been made to educate beneficiaries,
                      physicians, or medical facilities about coverage and level of service
                      issues affecting ambulance transports. Eleven of seventy-three contract
                      jurisdictions reported conducting training for hospitals, seven reported
                      training physicians, two reported offering training to dialysis facilities,


    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         22
                                                                                   Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S


                      and none reported providing information to nursing homes. In seven
                      contract jurisdictions, contractors reported making educational contacts
                      with beneficiary groups regarding ambulance coverage issues.

                      The majority of contractors reported that educational activities targeted
                      at Medicare beneficiaries were limited due to reductions in outreach and
                      education budgets. Two contractors further commented that CMS
                      believed that information regarding coverage of ambulance services
                      contained in the “Medicare and You Handbook” (the beneficiary
                      handbook issued each year) was sufficient and further beneficiary
                      education was not needed.
                      Lack of education may contribute to initiation of improper ambulance
                      transports by third-party providers
                      Third parties who request nonemergency ambulance transports may not
                      be aware of Medicare requirements for nonemergency ambulance
                      transport. When a health care facility is the origin of the ambulance
                      trip, it is unlikely that the beneficiary called for the ambulance
                      transport. In these situations, a clinical judgment must be made to
                      determine whether the patient’s condition meets the requirements for
                      nonemergency transport. This decision is usually made, out of
                      necessity, by the health care facility staff rather than the patient.

                      Our analysis of noncovered transports found that 63 percent of them
                      originated from a third-party facility such as a hospital, nursing home,
                      dialysis facility, or physician’s office. The remaining 37 percent
                      originated from a residence or the scene of an accident. This is in
                      contrast with covered transports, of which roughly 50 percent originated
                      from a third-party facility and 50 percent from a residence or scene of
                      accident. Of all transports, 57 percent originated at a third-party
                      facility.

                      The lack of education afforded third-party providers regarding
                      ambulance coverage guidelines may contribute to improper use of
                      nonemergency transports. Our medical reviewers expressed concern
                      that ambulances were being used as taxis or to facilitate transfers of
                      patients into and out of vehicles as a convenience rather than out of
                      medical necessity. Medicare’s guidelines for coverage of nonemergency
                      ambulance transports are clear. The benefit should not be used for
                      convenience, nor is availability of other types of transportation options a
                      criterion for coverage.30




    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         23
                                                                               Report Template Version = 03-01-05_rev.07




Δ   R E C O M M E N D A T I O N S                                                  





                  Since our previous work in this area, ambulance transport error rates
                  have fallen, although nonemergency transports and transports to or
                  from dialysis facilities continue to be problematic. Based on our current
                  findings and the estimated $402 million paid in error in CY 2002, we
                  believe there continues to be a need for increased efforts to prevent
                  improper payment of ambulance claims, particularly the dialysis and
                  nonemergency transports that are at the greatest risk for error.
                  Currently, contractors have inadequate safeguards to detect and
                  prevent improper payments for specific types of ambulance transports,
                  and neither CMS nor the contractors are adequately educating staff of
                  third-party providers about Medicare’s coverage rules for ambulance
                  transports. Based on these findings, we offer the following
                  recommendations. CMS should:
                  Implement Program Integrity Activities Designed to Reduce Improper
                  Payments for Ambulance Transports at Greatest Risk for Error
                  Consider instructing all Medicare contractors to implement prepayment edits
                  that target dialysis and nonemergency ambulance transport claims. We are
                  sensitive to the fact that contractors must work within claims
                  processing budgets and must be judicious in conducting additional
                  reviews of claims. Therefore, we are not recommending prepayment
                  review of all ambulance claims, although some contractors are currently
                  doing this. Rather, we urge CMS to instruct contractors to consider
                  adding prepayment edits that would scrutinize more closely claims
                  where the trip origin or destination was a dialysis facility, or other
                  nonemergency transports involving a hospital, nursing home, or
                  physician’s office.
                  Instruct contractors, when conducting a postpayment medical review, to obtain
                  documentation from ambulance suppliers and third-party providers to
                  determine if the transport meets program requirements. As indicated in our
                  findings, contractors do not consistently obtain documentation from the
                  ambulance supplier and from at least one provider associated with the
                  transport (the origin or destination facility). We found this information
                  to be necessary to determine the appropriateness of the transport.
                  Direct contractors to educate medical facilities that initiate ambulance
                  transports about the appropriate use of Medicare’s nonemergency ambulance
                  transport benefit. Information similar to that sent to ambulance suppliers
                  should be sent to nursing homes, dialysis facilities, hospitals, and


OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         24
                                                                                   Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T                         I O N        S

                      physicians instructing them on when it is appropriate to use an
                      ambulance for nonemergency transports. The issue of beneficiary
                      liability (i.e., the fact that should the transport be paid, and later
                      denied, the beneficiary is liable for any overpayment unless he or she
                      lacks constructive knowledge that the service is not covered) should also
                      be discussed in these informational documents.

                      Once education of third-parties has been completed, CMS may want to
                      examine whether third-party providers continue ordering noncovered
                      ambulance transports. There is no incentive for third-party providers
                      not to call an ambulance in nonemergency situations, especially when
                      other suitable transportation options (e.g., stretcher or wheelchair van)
                      are not available or difficult to arrange. If a problem still exists after
                      educating third parties, we suggest that CMS examine existing
                      departmental authorities that may permit CMS to take appropriate
                      administrative actions against providers that demonstrate a pattern of
                      improper use of the nonemergency ambulance benefit. If appropriate,
                      suspected fraudulent and abusive providers should be referred to OIG.

                      In addition to these recommendations, we have forwarded information
                      on noncovered, miscoded, and undocumented services identified in our
                      sample to CMS for appropriate action.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS’s comments are summarized below and included in their entirety
                      as Appendix D.

                      CMS concurred with our recommendations. CMS indicated that it will
                      advise all contractors to consider implementing prepayment edits for
                      trips with an origin or destination modifier for a dialysis facility, as well
                      as nonemergency transports to and from a hospital, nursing home, or
                      physician’s office. In addition, CMS noted that it will encourage
                      contractors to consider obtaining documentation from ambulance
                      suppliers and third-party providers to determine that ambulance
                      transports meet program requirements on postpayment review. CMS
                      also stated that it plans to encourage Medicare contractors to consider
                      educating suppliers and third-party providers who initiate ambulance
                      transports about the appropriate use of Medicare’s nonemergency
                      ambulance transport benefit. If education proves ineffective,
                      contractors should then determine if they can take administrative
                      action and refer any potentially fraudulent or abusive providers to OIG.

    OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         25
                                                                               Report Template Version = 03-01-05_rev.07




                  CMS’s comments did not warrant any revisions to the results of our
                  review or our recommendations.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         26
                                                                               Report Template Version = 03-01-05_rev.07




Δ   E N D N O T E S                                





                  1	    Medicare Ambulance Payments: A Framework for Change. U.S.
                        Department of Health and Human Services, Office of Inspector
                        General, April 1999.

                  2	    BBA § 4531(b)(2) added § 1834(l) of the Social Security Act.

                  3	    CMS Parts A and B ambulance claim files for CY 2002.

                  4	    Social Security Act § 1861(s)(7) and 42 CFR §§ 410.40 and 410.41.

                  5	    Medicare Part B Reference Manual, September 2001, Appendix F:
                        Ambulance Billing Guide.

                  6	    42 CFR § 410.40(d)(1).

                  7	    42 CFR § 410.40(d)(2)(3).

                  8	    The Medicare Ambulance Benefit - Statutory Bases for Denial of
                        Claims, prepared by CMS, July 10, 2003.

                  9	    42 CFR § 410.40(b).

                  10	   Medicare Part B Reference Manual, September 2001, Appendix F:
                        Ambulance Billing Guide.

                  11    42 CFR § 410.40(3)(v) and Medicare Claims Processing Manual,
                        Chapter 26: Completing and Processing Form CMS-1500 Data Set.

                  12	   BBA § 4531(b)(2).

                  13	   42 CFR § 414.615.

                  14	   Social Security Act § 1834(l)(10)-(13).

                  15	   Social Security Act § 1893(a)-(b). See also CMS web document at
                        http://www.cms.hhs.gov/providers/psc/pscwebp2.asp.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         27
                                                                               Report Template Version = 03-01-05_rev.07




                  16	   Medicare Claims Processing Manual (Pub. 100-04), Chapter 15:
                        Ambulance, sections 30.1.2 and 30.2.1 F.

                  17	   Medicare Claims Processing Manual (Pub. 100-04), Chapter 15:
                        Ambulance, section 30.2.1 F.

                  18    The Medicare Medical Review Program—Pay It Right,
                        http://www.cms.hhs.gov/providers/mr/default.asp, accessed
                        October 18, 2004.

                  19    Medicare Claims Processing Manual (Pub.100-04) Chapter 15:
                        Ambulance, Section 30.2.

                  20    Medicare Medical Review Program,
                        http://www.cms.hhs.gov/providers/mr/default.asp, accessed
                        October 18, 2004.

                  21    Social Security Act § 1842(a)(1)(C).

                  22    Medicare Medical Review Program,
                        http://www.cms.hhs.gov/providers/mr/default.asp, accessed
                        October 18, 2004.

                  23	   According to the document entitled “The Medicare Ambulance
                        Benefit—Statutory Bases for Denial of Claims,”

                        . . . beneficiaries are liable for denial for ambulance claims under
                        §1861(s)(7). Nevertheless, that fact does not abrogate any other
                        protections from financial liability that the beneficiary may have, e.g.,
                        the beneficiary cannot be charged when a provider agreement is
                        violated in some circumstances (see 42 CFR § 489.21(b) regarding
                        failure to submit proper claims) or instances in which a waiver of
                        recovery for overpayments applies (see §§ 1870, 1879, and 1842(l)).
                        There are also protections against fraud, abuse, substandard care,
                        quackery, etc. (See title XI, § 1128A(a)(1)(E).

                  24	   Medicare Claims Processing Manual, Chapter 30: Financial Liability
                        Protections.

                  25	   CMS Program Memorandum AB-03-106, July 25,2003.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         28
                                                                               Report Template Version = 03-01-05_rev.07




                  26	   CMS Publication 100-04—Medicare Claims Processing. Transmittal
                        459, February 4, 2005.

                  27	   Norwich Ambulance Company Pleads Guilty to Federal Health Care
                        Fraud Charge. Press Release: United States Attorney’s Office,
                        District of Connecticut, October 19, 2004.

                  28	   Norwich Ambulance Company Sentenced on Federal Health Care
                        Fraud Case. Press Release: United States Attorney’s Office, District
                        of Connecticut, March 18, 2005.

                  29	   Hospital, Ambulance Firms Agree to Pay $20 Million in False
                        Certifications Case. BNA Health Care Daily Report, Volume 9
                        Number 209, October 29, 2004.

                  30	   Medicare Part B Reference Manual, September 2001, Appendix F:
                        Ambulance Billing Guide.




OEI-05-02-00590   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         29
                                                                                         Report Template Version = 03-01-05_rev.07




   Δ         A P P E N D I X                                 ~        A

Confidence Intervals for Selected Statistics



Confidence Intervals for All Errors by Type of Transport

                                           Error Estimates                                           Dollar Estimates

Transport Type            Point Estimate                   Upper 95       Lower 95      Point Estimate       Upper 95         Lower 95

All Transports (N=582)                24.77%                 28.57%        20.97%        $401,691,827    $483,038,776   $320,344,878
Dialysis (N=170)                      37.65%                 44.94%        30.36%        $ 66,391,695    $ 83,534,318   $ 49,249,072
Nonemergency (N=208)                  30.77%                 37.06%        24.48%        $172,908,954    $222,029,291   $123,788,617
Emergency (N=204)                     19.12%                 24.53%        13.71%        $162,391,178    $224,926,361   $ 99,855,995



Confidence Intervals for Coverage Errors by Type of Transport

                                Coverage Error Estimates                                            Dollar Estimates

Transport Type           Point Estimate                    Upper 95 Lower 95         Point Estimate         Upper 95         Lower 95

All Transports (N=547)                12.84%                 15.68%        10.00%        $220,305,387    $275,437,008   $165,173,766
Dialysis (N=158)                      27.22%                 34.18%        20.26%        $ 47,925,942    $ 62,716,223   $ 33,135,661
Nonemergency (N=194)                  19.59%                 25.20%        13.98%        $101,334,064    $134,524,689   $ 68,143,440
Emergency (N=195)                       6.67%                10.18%         3.16%        $ 71,045,381    $112,507,721   $ 29,583,041




Confidence Intervals for Level of Service Errors by Type of Transport

                          Level of Service Error Estimates                                          Dollar Estimates

Transport Type           Point Estimate                    Upper 95 Lower 95         Point Estimate         Upper 95         Lower 95

All Transports (N=453)                  8.72%                12.18%         5.78%         $31,499,975     $43,895,645    $19,104,305
Dialysis (N=115)                        7.83%                12.30%         2.91%         $ 3,707,973     $ 8,782,333    $            0
Nonemergency (N=156)                    7.69%                11.79%         3.50%         $ 7,080,050     $12,394,118    $ 1,765,982
Emergency (N=182)                       9.34%                13.46%         5.11%         $20,711,951     $30,695,147    $11,728,755




 Confidence Intervals for Documentation Errors by Type of Transport

                           Documentation Error Estimates                                            Dollar Estimates

Documentation Type       Point Estimate                    Upper 95 Lower 95         Point Estimate         Upper 95         Lower 95


All Transports (N=582)                  5.44%                    7.46%      3.42%        $149,886,465    $213,136,543    $86,636,386



OEI-05-02-00590            M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                            30
                                                                                               Report Template Version = 03-01-05_rev.07




  Δ          A P P E N D I X                                      B

Significance Tests for Selected Statistics




Comparison of Coverage Error Rates by Type of Transport (N=582)



                Transport Type
                                                             Error Rates
                                                                                                                                  P value
                                                              Target Transport Type Comparison Transport Type
Target                                Comparison                           Point Estimate                  Point Estimate     Chi-Square

Dialysis                           Nonemergency                                    27.22%                          19.59%           0.1176
Dialysis*                                 Emergency                                27.22%                           6.67%           0.0000
Nonemergency*                             Emergency                                19.59%                           6.67%           0.0001

Bonferroni threshold = 0.016667

* Differences in error rates are statistically significant at the 0.05 level.




OEI-05-02-00590                   M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         31
                                                                                       Report Template Version = 03-01-05_rev.07




   Δ         A P P E N D I X                                ~        C

Medical Reviewer Coverage Determinations by Documentation Level



All Transports

Coverage Determination         Level 3 Documentation                      Level 2 Documentation        Level 1 Documentation
                                                            (N=547)                        (N=616)                     (N=616)

Not Covered                                                     12.84%                        4.51%                       0.16%
Covered                                                         79.71%                       73.22%                      25.01%
Unable to Determine                                              7.45%                       22.27%                      74.84%
  Total                                                          100%                         100%                        100%




Dialysis Transports

Coverage Determination         Level 3 Documentation                      Level 2 Documentation        Level 1 Documentation
                                                            (N=158)                        (N=190)                     (N=190)

Not Covered                                                     27.22%                        5.26%                       0.00%
Covered                                                         40.51%                       37.89%                      10.53%
Unable to Determine                                             32.28%                       56.84%                      89.47%
  Total                                                          100%                         100%                        100%




Nonemergency Transports

Coverage Determination         Level 3 Documentation                      Level 2 Documentation        Level 1 Documentation
                                                            (N=194)                        (N=209)                     (N=209)

Not Covered                                                     19.59%                        5.74%                       0.48%
Covered                                                         72.16%                       58.37%                      14.83%
Unable to Determine                                              8.25%                       35.89%                      84.69%
  Total                                                          100%                         100%                        100%




Emergency Transports

Coverage Determination         Level 3 Documentation                      Level 2 Documentation        Level 1 Documentation
                                                            (N=195)                        (N=217)                     (N=217)

Not Covered                                                      6.67%                        3.69%                       0.00%
Covered                                                         90.26%                       87.56%                      33.18%
Unable to Determine                                              3.08%                        8.76%                      66.12%
  Total                                                          100%                         100%                        100%




OEI-05-02-00590           M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         32
                                                                                  Report Template Version = 03-01-05_rev.07




    Δ         A P P E N D I X                              ~     D      





OEI-05-02-00590      M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         33 

                                                                                   Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X            ~          D            





OEI-05-02-00590       M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         34 

                                                                                   Report Template Version = 03-01-05_rev.07




    A   P   P E N D   I X            ~          D            





OEI-05-02-00590       M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         35 

                                                                                 Report Template Version = 03-01-05_rev.07




  Δ         A C K N O W L E D G M E N T S                                              




                    This report was prepared under the direction of William C. Moran,
                    Regional Inspector General for Evaluation and Inspections in the
                    Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                    General. Other principal Office of Evaluation and Inspections staff who
                    contributed include:

                    Marco Villagrana, Project Leader
                    Erin Guay, Lead Analyst

                    Suzanne Bailey, Intern

                    Natalie Coen, Program Analyst

                    Seema Dargar, Intern

                    Tom Komaniecki, Program Analyst

                    Jocelyn Moore, Intern

                    Margarita Rodriguez, Program Inspections Assistant

                    John Traczyk, Program Analyst

                    Doris Jackson, Program Specialist

                    Tricia Davis, Director, Medicare and Medicaid Branch



                    Technical Assistance

                    Barbara Tedesco, Mathematical Statistician
                    Robert Gibbons, Program Analyst

                    Gerius Patterson, Program Analyst




OEI-05-02-00590     M E D I C A R E PAY M E N T S   FOR   AMBULANCE TRANSPORTS                                         36
